No. 21-5592

In the Supreme Court
of the United States
__________
JOHN HENRY RAMIREZ,
Petitioner,
v.
BRYAN COLLIER, EXECUTIVE DIRECTOR,
TEXAS DEPARTMENT OF CRIMINAL JUSTICE, ET AL.
Respondents.
_________
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

__________

I hereby certify that on this 1st day of October, 2021, I caused three copies of the
Motion of Amicus Curiae The Becket Fund for Religious Liberty for Leave for Prof.
Michael McConnell to Present Oral Argument on Behalf of Amicus, for Divided
Argument, and to Enlarge the Time for Argument, to be served via first class mail, as
required by Supreme Court Rule 29.5, on the following counsel:
Seth Kretzer
Law Offices of Seth Kretzer
9119 South Gessner, Suite 105
Houston, TX 77054
(713) 775-3050
Judd Edward Stone II
Texas Attorney General’s Office
P.O. Box 12548, Capitol Station (MC 059)
Austin, TX 78711
(512) 936-1700
I further certify that I caused a copy of the motion to be served electronically on
the following emails for counsel for Petitioner and Respondents:
Seth Kretzer
Judd Edward Stone II

seth@kretzerfirm.com
judd.stone@oag.texas.gov

I further certify that all parties required to be served have been served.

Eric C. Rassbach
Counsel of Record
The Becket Fund for Religious Liberty
1919 Pennsylvania Ave. NW
Suite 400
Washington, DC 20006
Tel: (202) 995-0095
erassbach@becketlaw.org

